No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------NEXT ENERGY, LLC,
Petitioner,
v.
ILLINOIS DEPARTMENT OF NATURAL RESOURCES,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The Illinois Supreme Court
---------------------------------♦--------------------------------PETITION FOR A WRIT OF CERTIORARI
---------------------------------♦--------------------------------RODNEY V. TAYLOR*
*Counsel of Record
HILARY A. BARNES
CHRISTOPHER & TAYLOR
1219 N. Delaware Street
Indianapolis, IN 46202
(317) 635-9000
rodtaylor@abatelegal.com
MORRIS LANE HARVEY
HARVEY & BAKER, P.C.
2029 Broadway
Mt. Vernon, IL 62864
(618) 244-9544
lharvey@lmh-law.net
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
Petitioner, Next Energy, LLC, commenced acquiring blocks of five-year oil leases in 2011 to drill high
volume horizontal hydraulic fracturing (horizontal
hydraulic fracturing) wells to recover oil from shale
formations. Shale oil leasehold interests, like all mineral interests, are separate, distinct leasehold interests
from the surface of the land. Horizontal hydraulic fracturing is the only economically viable method to recover shale oil from Next’s leases. The value of the
shale oil constitutes the entire value of Next’s leases.
At the time the leases were acquired, Illinois law allowed the horizontal hydraulic fracturing process. In
mid-2012, after the lease blocks were acquired but
before permits could be obtained to drill such wells,
Respondent the Illinois Department of Natural Resources (Illinois), commenced an unannounced, unauthorized moratorium on permits for such wells. In
2013, the Illinois legislature passed an Act governing
the drilling of such wells. Illinois then took over a year
to promulgate said regulations. To date, none of these
wells have been drilled in Illinois since the moratorium.
The question presented is whether an unauthorized moratorium on permits needed by Next to drill its
wells, together with the time required for onerous regulations and procedures which exceeded the term of
Next’s leases, effects a categorical regulatory taking of
those leases under the Fifth Amendment.

ii
PARTIES TO THE PROCEEDINGS
Next Energy, LLC was Plaintiff and Appellant below. Respondent, the Illinois Department of Natural
Resources was Defendant and Appellee below.
RULE 29.6 DISCLOSURE
No parent or publicly owned corporation owns 10%
or more of the stock in Next Energy, LLC.
RELATED CASES
Next Energy, LLC v. The Illinois Department of Natural
Resources, Cause No. 2015-L-13, Circuit Court for the
Second Judicial Circuit, Wayne County, Illinois, Judgement entered December 3, 2018.
Next Energy, LLC v. The Illinois Department of Natural
Resources, Cause No. 5-18-0582, Appellate Court of Illinois, Fifth District, Judgement entered April 15,
2020.
Next Energy, LLC v. The Illinois Department of Natural
Resources, Cause No. 5-18-0582, Supreme Court of Illinois, Motion for Leave to Appeal denied October 2,
2020.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED...................................

i

PARTIES TO THE PROCEEDINGS ...................

ii

RULE 29.6 DISCLOSURE...................................

ii

RELATED CASES ...............................................

ii

TABLE OF CONTENTS ......................................

iii

TABLE OF AUTHORITIES .................................

v

PETITION FOR A WRIT OF CERTIORARI .......

1

OPINIONS BELOW.............................................

1

JURISDICTION ...................................................

1

CONSTITUTIONAL AND STATUTORY PROVISIONS ...............................................................

1

INTRODUCTION ................................................

2

STATEMENT OF THE CASE..............................

4

REASONS FOR GRANTING THE PETITION ...

7

I.

Illinois’ Moratorium Constituted a Compensable Taking ......................................... 10

II.

Illinois’ Regulations and Process Constitute a Compensable Taking ....................... 13
A. Regulatory Takings and Futility ......... 13
B. Onerous and Repetitive Regulatory
Process ................................................. 16
1. The Regulatory Scheme .................. 16
2. A Closer Look at the Woolsey Application Process considering Palazzolo ..... 21

iv
TABLE OF CONTENTS – Continued
Page
3. Implications of the Woolsey Experience ................................................. 25
C. Illinois’ Onerous and Repetitive Regulations Resulted in Next’s Loss of All
Economic Benefit .................................. 32
III.

The Illinois Cases Cited Are Inapposite
and Offer No Precedential Value ............... 35

IV. Allowing the Lower Court Rulings to Stand
Adversely Impacts Numerous Other Shale
Oil Property Owners in Southern Illinois .... 36
CONCLUSION..................................................... 37
APPENDIX
Circuit Court Order filed December 3, 2018....... App. 1
Appellate Court Order filed April 21, 2020 ...... App. 13
Supreme Court Order filed September 30,
2020 ................................................................ App. 37

v
TABLE OF AUTHORITIES
Page
CASES
Anaheim Gardens v. United States, 444 F.3d
1309 (2006) .................................................. 17, 18, 33
Armstrong v. United States, 364 U.S. 40 (1960) ...........8
Chicago, B. & Q. R. Co. v. Chicago, 166 U.S. 226
(1897) .......................................................................32
First Evangelical Lutheran Church v. County of
Los Angeles, 482 U.S. 304 (1987) ................ 11, 12, 13
Kawaoka v. City of Arroyo Grande, 17 F.3d 1227
(9th Cir. 1994)..........................................................35
LaSalle Bank National Ass’n v. City of Oakbrook
Terrace, 393 Ill. App. 3d 905 (2009) .................. 35, 36
Lingle v. Chevron U.S.A., 544 U.S. 528 (2005) ...........10
Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. 419 (1982) ............................................. 9, 15
Lucas v. South Carolina Coastal Council, 505
U.S. 1003 (1992) .............................................. passim
Palazzolo v. Rhode Island, 533 U.S. 606
(2001)............................................................. passim
Penn Central Transp. Co. v. New York City, 438
U.S. 104 (1978) ..........................................................9
Pennsylvania Coal Company v. Mahon, 260 U.S.
393 (1922) ..................................................................8
Sherman v. Town of Chester, 752 F.3d 554 (2d
Cir. 2014) ......................................................... passim

vi
TABLE OF AUTHORITIES – Continued
Page
Suitum v. Tahoe Regional Planning Agency, 520
U.S. 725 (1997) ........................................................36
Tahoe-Sierra Preservation Council, Inc., et al. v.
Tahoe Regional Planning Agency, et al., 535
U.S. 302 (2002) ........................................................12
CONSTITUTIONAL PROVISION
U.S. Const. amend. V .......................................... passim
ILLINOIS STATUTES
225 ILCS 732/1-1 et seq. ...............................................5
625 ILCS 5/15-316 ......................................................26
735 ILCS 30 ..................................................................5

1
PETITION FOR WRIT OF CERTIORARI
Next Energy, LLC respectfully petitions for a writ
of certiorari to review the judgment of the Illinois Supreme Court in this matter.
---------------------------------♦---------------------------------

OPINIONS BELOW
The decisions of the Illinois Supreme Court, the
Illinois Appellate Court and the Wayne County Illinois
Circuit Court are reprinted at Pet. App. 1-37.
---------------------------------♦---------------------------------

JURISDICTION
The Supreme Court of Illinois entered its judgment on September 30, 2020 and denied a petition for
leave to appeal from the Illinois Appellate Court pursuant to Illinois Supreme Court Rule 315. This Court
has jurisdiction under 28 U.S.C. Section 1257.
---------------------------------♦---------------------------------

CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment V provides:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service
in time of war or public danger; nor shall any
person be subject for the same offense to be

2
twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of
law; nor shall private property be taken for
public use, without just compensation.
---------------------------------♦---------------------------------

INTRODUCTION
In 1938, the Pennsylvania Coal Company asserted
the Commonwealth of Pennsylvania promulgated regulations rendering its coal mines worthless. Next
makes a similar claim here, but as to oil leases. Justice
Oliver Wendall Holmes Jr. wrote for the Court and held
when regulations go so far to deny the use of property,
those regulations amount to a taking in violation of
Amendment V of the Constitution. Those same considerations apply in this case.
In 2011, Next began acquiring lease blocks in Illinois with five-year primary terms to produce and sell
oil from shale formations and intended to use the horizontal hydraulic fracturing process to recover the oil.
That process is the only economical method of oil recovery for the shale formations. Pet. App. 33. Next commenced leasing subsurface mineral rights containing
shale oil when horizontal hydraulic fracturing was
allowed by Illinois. Pet. App. 33.
These leasehold interests are taxed and can be
conveyed, owned, attached, foreclosed upon, and

3
transferred separately from the surface of the land. A
lien on one does not encumber the other.
After Next acquired its lease blocks, but before it
could apply for drilling permits, Illinois Department of
Natural Resources instituted a moratorium of indeterminate length, beginning in mid-2012. Pet. App. 19.
This moratorium was unauthorized by the legislature,
and effectively prohibited the entire use of Next’s
leases. Pet. App. 19, 33, 34. Illinois neither published
nor announced the existence or duration of the moratorium, nor did it ever supply a reason for this moratorium. Without the ability to apply for a permit, Next’s
leases were rendered worthless, as the leases could not
be used for any purpose, assigned, or sold.
In 2013, Illinois enacted the Hydraulic Drilling
and Fracturing Regulatory Act purporting to govern
horizontal hydraulic fracturing operations. Eighteen
months later, in 2014, Illinois finally promulgated regulations allegedly implementing the Act. Next suspected and asserted in its complaint that Illinois would
never allow horizontal hydraulic fracturing. Pet. App.
19, 33, 34. Next would learn that the newly devised
permit application process for horizontal hydraulic
fracturing would take longer than the term remaining
on Next’s leases to prepare for and drill its numerous
horizontal hydraulic fracturing oil wells. Pet. App. 22
and n. 2 therein. With the time expired or expiring on
its leases, Next determined it would be futile to apply
for permits for the scores of wells it planned for drilling
on its blocks of leases.

4
Since the moratorium and expiration of Next’s
leases, no applicant has ever been granted an unconditional permit for these horizontal hydraulic fracturing
wells. To date, not one horizontal hydraulic fracturing
well has been drilled in Illinois since the passage of the
new Act. See n. 5 infra.
---------------------------------♦---------------------------------

STATEMENT OF THE CASE
This action was commenced on November 9, 2015,
when Next filed a Complaint in the Circuit Court of
Wayne County alleging inverse condemnation and a
regulatory total taking of its leasehold property. The
Complaint alleged such leases could be economically
produced only by horizontal hydraulic fracturing wells.
Pet. App. 19, 33.
Next began acquiring its block of leases in 2011.
Before Next or any potential assignees could apply for
permits to begin drilling, Illinois imposed and enforced
an unauthorized moratorium on the issuance of permits for horizontal hydraulic fracturing under existing
laws. Pet. App. 19, 33. Despite existing laws and regulations allowing this method of oil extraction, applications for permits for these wells were not accepted by
Illinois. In essence, Illinois imposed a de facto moratorium beginning in mid-2012. Pet. App. 19, 33.
After Next acquired its leases, the legislature
passed Public Act 98-22 with an effective date of June
7, 2013, purportedly addressing horizontal hydraulic
fracturing operations. Pet. App. 33. That statute is

5
referred to as the Hydraulic Drilling and Fracturing
Regulatory Act and is found at 225 ILCS 732/1-1 et seq.
Although the statute was enacted in June of 2013,
regulations implementing the statute, including regulations related to the application for permits, were not
adopted until November 2014, nearly a year and six
months after passage of the Act. Coupled with the moratorium, over three years of the term of Next’s lease
blocks had expired and during that time no such permits were accepted by Illinois. Pet. App. 33. From that
time, the application process would require almost two
more years. Pet. App. 22-24.
Because Illinois failed to adopt regulations until
November 2014, Next could not effectively apply for a
permit, sell, or sublet any of its leases prior to that time
even if the regulations were workable. Pet. App. 33.
Each one of Next’s proposed horizontal hydraulic fracturing wells would require a separate permit and the
time and effort associated with horizontal hydraulic
fracturing permit applications.
Next’s Complaint asserted that the conduct of Illinois amounted to a total regulatory taking and inverse
condemnation of oil leases for which it was entitled to
just compensation pursuant to 735 ILCS 30, the Illinois Eminent Domain statute, and Amendment V to
the Constitution. The claims of the Next Complaint
were restated on page 1 of the Order on Defendant’s
Motion For Judgment On The Pleadings. Pet. App. 13,
14. The Illinois Appellate Court Rule 26 Order reviewed those claims at Pet. App. 20 and Pet. App. 28

6
which affirmed the dismissal of the Amendment V
claims. Pet. App. 36. Thereafter, the Illinois Supreme
Court denied the Petition for Leave to Appeal the Illinois Appellate Court Rule 26 Order dismissing the
Amendment V claims. Pet. App. 37.
Additionally, Next’s Complaint alleged the application process was so onerous, ill-defined, and burdensome as to render application for such a permit
economically prohibitive, impractical, and therefore futile. Pet. App. 21-22, 33. Further, Next argued that the
regulations promulgated exceeded the authority delegated under the Act and were unworkable and overreaching, and that the regulations rendered the Next
leases worthless. As such, Next is entitled to just compensation for its leases pursuant to Amendment V of
the Constitution of the United States.
On January 19, 2015, Illinois filed a Motion to Dismiss, asserting Next had failed to plead facts stating a
cause of action for inverse condemnation. Illinois
claimed in the absence of a physical taking, no eminent
domain proceeding could be maintained.
The trial court properly denied the Motion to Dismiss in its November 21, 2016 Order. Illinois then filed
its Answer and Affirmative Defenses. Over a year and
a half later, on August 1, 2018, Illinois filed a Motion
for Judgment on the Pleadings. The motion mirrored
the previous Motion to Dismiss and the trial court’s order granting such motion was entered on December 3,
2018. The Order dismissed Next’s Complaint, holding

7
the Complaint was not ripe as Next had not applied for
a permit.1
Next appealed the trial court order granting the
Judgment on the Pleadings to the Illinois Appellate
Court. The court affirmed the trial court judgment on
April 20, 2020. Pet. App. 13-14. Review of the decision
was sought in the Illinois Supreme Court and was
denied on September 30, 2020. Pet. App. 37. It is from
that decision this Petition for a Writ of Certiorari is
sought.
---------------------------------♦---------------------------------

REASONS FOR GRANTING THE PETITION
The Illinois court decisions undermine and propagate confusion as to the rulings of this Court regarding
both administrative taking jurisprudence and the futility doctrine. Allowing these decisions to stand encourages Illinois and other like-minded states to
implement futile, repetitive, and unfair regulatory processes, as well as unauthorized moratoria thereby
taking private property in violation of Amendment V.
Allowing the Illinois decisions to stand contradicts this
Court’s precedent, and adversely impacts multiple
“taking” lawsuits filed in several Illinois counties on
1

For the purposes of evaluating a Motion for Judgment on
the Pleadings, the allegations of fact must be taken as true, including Next’s allegations the regulations were so onerous, ill-defined, and burdensome as to render application for the permit
futile and impractical. Notwithstanding the allegations in Next’s
Complaint, the court granted the Motion for Judgment on the
Pleadings.

8
behalf of thousands of shale oil owners. Those lawsuits
have been stayed pending a decision of this Court.
Federal taking claims arise from Amendment V to
the Constitution which provides: “[N]or shall private
property be taken for public use without just compensation.” The takings clause prevents the government
from “forcing some people alone to bear public burdens
which, in all fairness and justice, should be borne by
the public as a whole.” Armstrong v. United States, 364
U.S. 40, 49 (1960). Beginning with Pennsylvania Coal
Company v. Mahon, 260 U.S. 393 (1922), this Court
consistently recognized government regulation of
private property may be so onerous its effect is tantamount to a direct appropriation or ouster. In Pennsylvania Coal, Justice Holmes observed that for the
state “ . . . To make it commercially impracticable to
mine certain coal has very nearly the same effect for
constitutional purposes as appropriating or destroying
it. Thus, we think that we are warranted in assuming
that the statute does.” Justice Holmes’ further observation was that a regulation that “goes too far” in restricting property rights effects a taking for which the
government must compensate the property owner.
Pennsylvania Coal, 260 U.S. at 414-415.
This case centers on an inverse condemnation
claim. Next asserts that Illinois has taken oil leases
but has not instituted eminent domain proceedings to
do so. Two kinds of inverse condemnation taking
claims are implicated by Illinois’ actions: (1) per se
physical occupation claims, and (2) categorical claims,
resulting from regulations which deprive the property

9
owner of all economically beneficial use of the property. Per se takings are best illustrated by Loretto v.
Teleprompter Manhattan CATV Corp., 458 U.S. 41
(1982), while categorical takings claims are best explained by Lucas v. South Carolina Coastal Council,
505 U.S. 1003, 1019 (1992). In categorical cases, the
application of a regulation to property deprives the
landowner of an entire property interest. Lucas’
claims for just compensation under the Fifth Amendment breaks into two essential elements: (1) the imposition of a regulation totally depriving an owner of
a right in property, and (2) the right deprived is recognized under state law and is not a nuisance. Lucas,
505 U.S. at 1019.
The classic “taking” requiring just compensation
involves a direct government appropriation or physical
invasion of private property. However, well-settled
precedent also recognizes direct appropriation is not
the only species of taking, and that regulatory taking
is also a taking subject to Fifth Amendment protections. This Court’s decision in Penn Central Transp. Co.
v. New York City, 438 U.S. 104 (1978) attempted to define how far is “too far” for a regulation to go when “a
less than a total taking” occurred. Penn Central guided
lower courts to conduct an “ad hoc factual inquiry” into
a regulation’s economic impact, effect on the property
owner’s “reasonable investment backed expectations,”
and the “character of the governmental action.” Penn
Central, 438 U.S. at 124. But with a total (categorical)
taking, a court does not apply the Penn Central inquiry.
Sometime after generation of this “factual inquiry”

10
requirement, the Court recognized the character of
certain impediments on property was so serious that
this amounted to a total taking. Categorical total taking occurs where a regulatory use “completely deprives
an owner of ‘all economically beneficial use’ of her
property.” Lingle v. Chevron U.S.A., 544 U.S. 528, 538
(2005) quoting Lucas, 505 U.S. at 1019.
Here, Next claims that the taking of its shale oil
leases by Illinois is a total regulatory taking because
Next’s leases had five-year terms which expired without development due to the unauthorized moratorium,
onerous regulations, and a repetitive permit process.
As a result, Next’s leases expired and are now worthless.
Illinois’ action is a taking of Next’s property as the
value of the leases are based on the time remaining on
such leases during which the leases can be developed.
Each day, week, month, and year of a lease has a value.
Ripeness or the requirement to apply for a permit is
not an issue with a moratorium as no permits were accepted by Illinois during the unauthorized moratorium
and the time that can be fairly coupled with the moratorium. See n. 5.
I.

Illinois’ Moratorium Constituted a Compensable Taking

When Next commenced purchasing leases in 2011,
existing Illinois law allowed horizontal hydraulic fracturing wells. After Next leased thousands of acres
and expended substantial funds in the pursuit of

11
these leases, Illinois instituted and enforced an unauthorized and unannounced moratorium on the issuance of permits for this type of well, resulting in a
compensable taking of Next’s property.2 Pet. App. 19.
In 2013, the Illinois legislature passed the law it
claimed authorized horizontal hydraulic fracturing
wells. But since no permits would be issued until regulations were promulgated, more time and value were
taken from the Next leases. Regulations for the Act
were not promulgated until November of 2014. As a
result, that time can be fairly described as part of a
planned, ongoing, unauthorized moratorium on the
drilling needed by Next. Adding the time for an applicant to get through the red tape to the stage of a permit, its leases had expired or were expiring, leaving no
time to prepare for and drill its wells.3 Next decided
not to apply when applying for a permit was rendered
futile by the impediments incorporated in the permitting process by Illinois, starting with the moratorium
and concluding with the onerous permit application
process.
The seminal case concerning temporary moratoria
takings is this Court’s decision in First Evangelical
Lutheran Church v. County of Los Angeles, 482 U.S.
2

The moratorium continues to this day, as the permit process created by Illinois has resulted in no such permits pending,
and no such wells drilled. See n. 5.
3
The leases acquired under the previous law when horizontal hydraulic fracturing was permitted were of public record in
the court houses in the counties involved. The act of recording
those leases provides notice to Respondent of this leasing activity.

12
304 (1987), holding that temporary total land use restrictions depriving a property owner of all economically beneficial use of property requires payment of
just compensation.4 Consequently, the imposition of
an unauthorized moratorium on drilling permits by
the Governor of Illinois requires just compensation.
Notably, moratoria claims are not subject to objections
that the claims were not ripe or that the claimant
should have pursued other relief because permits were
not accepted by Illinois during the moratorium. Together, Lucas and First Evangelical require just compensation when a moratorium deprives a property
owner of all economically viable uses of property.
Next alleged that none of the applications for the
permits it needed would be accepted by Illinois during
this time, even though the laws of Illinois allowed such
drilling permits. Pet. App. 19. Each day, week, month,
and year that passed in which Illinois, without legislative authority, would not issue a permit is a taking that
eliminated all economic use of Next’s leases during
that time increment. Disallowing a permit is tantamount to disallowing drilling, and it follows that if
drilling is disallowed, the leases are rendered worthless and therefore unsaleable for that time, leaving
4

Tahoe-Sierra Preservation Council, Inc., et al. v. Tahoe Regional Planning Agency, et al., 535 U.S. 302 (2002) does not impact the analysis in this case as Tahoe concerned moratoria that
were of a limited duration and not a total taking, especially when
weighed against the span of time such property was held by the
owners of the land. Here, Next held leases that were limited in
time to 5 years, bringing Next clearly under the ambit of First
Evangelical.

13
Next with worthless property. Without the moratorium, Next could have assigned or sold its leases to
other oil operators but since it could not, its losses are
allowed under Lucas and First Evangelical.
II.

Illinois’ Regulations and Process Constitute a Compensable Taking

Like with Next, Sherman v. Town of Chester 752
F.3d 554 (2d Cir. 2014) featured a moratorium, unfair
regulations, and obstructions causing time delays designed to prohibit the real estate project of Sherman.
Sherman recognizes that unfair regulations and the
like excused Sherman from applying for a permit and
deemed that action a futile act. The Town in Sherman
created insurmountable barriers like the ones facing
Next.
A. Regulatory Takings and Futility
In Sherman, laws allowed development when
Sherman acquired his property, but the Town of
Chester had second thoughts when Sherman planned
to develop his subdivision. As a result, the Town of
Chester kept altering zoning requirements thereby
denying Sherman’s development plans. Getting the
hint, Sherman abandoned the zoning process claiming
futility. In response, the Town alleged that Sherman’s
case was not ripe. In his decision, Circuit Judge Staub
used as an analogy the experiences of Hungry Joe in
Joseph Heller’s Catch-22. Upon reaching 23 missions,
Hungry Joe packed his bags and wrote to his mother

14
that he would be coming home after 25 missions. Sadly,
he had to rewrite his letter and unpack when the
Colonel raised the number of missions to 30, then to
35. But when Hungry Joe was just three missions
away, the Colonel increased the number to 40, and then
to 45. At 44 missions, the Colonel set the number at 50,
and then 55. When Hungry Joe reached 51, he got the
hint and knew the Colonel would just “raise them”
again. Hungry Joe appealed to his squadron commander, who speculated, “Perhaps he won’t this time.”
Sherman, 752 F.3d at 557. Sherman, after experiencing more fees over ten years and more red tape, had
run out of time, money, and life. Sherman, 753 F.3d
at 563. Under those circumstances, the Court held
Sherman’s estate was not required to apply for a final
decision since to do so would be futile. Judge Staub
ruled that no final decision was required as the claim
was ripe and required no further compliance. Next
asks for no less in its case with similar impediments
as found in Sherman, 753 F.3d at 566.
Next concedes it never applied for a horizontal hydraulic fracturing permit for its wells and asserts it
should be excused for the same reasons expressed in
Sherman and asserts that it was futile to apply during
the moratorium. Takings jurisprudence recognizes two
exceptions in which lack of a final decision is excused:
futility and unfair/repetitive procedures. Sherman,
752 F.3d at 561. Although distinct concepts, the
analyses for the two are identical and both are present
in Next.

15
Next has shown its claim was ripe and demonstrated evidence of such futility of further pursuit,
namely that: no unconditional permit has ever been
granted by Illinois, the expiration of its leases, and the
unfair and repetitive procedures preceded by an unauthorized moratorium during which permit applications
were not accepted. These impediments resulted in not
a single horizontal hydraulic fracturing well being
drilled in Illinois under the Hydraulic Fracturing Act.
Almost a decade has passed since Next began acquisition of leases in 2011.
While Next is claiming a total (categorical) regulatory taking, this Court has found a per se taking with
only a partial, nominal taking. See Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. 419 (1982).
A categorical taking occurs, however, when an owner
has been deprived of all beneficial use of its property
as with Next. See, e.g., Lucas, 505 U.S. at 1019. Regarding this form of taking, Next stands in the same
shoes as the regulation plagued parties in Lucas and
Sherman.
The failure of Next to obtain a permit is excused
under the futility exception for good reason. This exception arises, as in Sherman, where a governmental
entity makes clear that pursuing remaining administrative remedies would not result in a different outcome especially when a governmental entity burdens
property by imposing repetitive or unfair procedures.
Governmental entities are prohibited from taking
property without compensation in the name of political
expediency. Here, Illinois manipulated the application

16
and permitting process to ensure the time for oil leases
would expire before Next or any other oil production
company could obtain permits and drill scores of horizontal hydraulic fracturing oil wells. And to date, none
have.
B. Onerous and Repetitive Regulatory Process
This type of horizontal hydraulic fracturing has
been stopped in Illinois since 2012 using onerous and
repetitious regulations coupled with a moratorium.
As a result, taking without compensation is the law of
Illinois and the rights of shale oil owners to extract oil
which can be safely and economically produced using
the horizontal hydraulic fracturing process have been
disregarded. Illinois courts have allowed barriers of
the permit process and impediments that created futility and an impossibility for Next.
1. The Regulatory Scheme
The onerous regulations implemented by Illinois
were detailed in Next’s Complaint. The Illinois Appellate Court Rule 23 Order, Pet. App. 33, 34, emphasizes
those factual allegations, stating:
Next Energy made the following factual
allegations in its complaint: (1) that it acquired five-year oil and gas leases for the
specific purpose of developing the leaseholds
through horizontal drilling and high-volume
fracturing in accordance with the then-existing
law; (2) that no other feasible basis existed for

17
extraction of oil from those leaseholds; (3)
that, after acquiring the leaseholds, the Department imposed a moratorium on the issuance of permits for fracturing for an indefinite
period of time; (4) that the legislature passed
Public Act 98-22, effective June 17, 2013,
which set out the application procedures for
the permit process; (5) that the Department
did not adopt regulations related to the issuance of the permits until November 2014; (6)
that it was impossible to apply for a permit
between June 2012 and November 2014 because it was well known that the applications
would not be reviewed; and (7) that the statutory and regulatory provisions were so odious,
ill-defined, and burdensome as to render application for the permit economically futile
and impractical. Next Energy then identified
the relevant provisions in the statute and
regulations that it considered ambiguous and
burdensome. The complaint also contended
that the futility exception applied to excuse
Next Energy’s failure to seek a final decision
for the above-stated reasons.
These allegations, to be taken as true for the purposes of a judgment on the pleadings, demonstrate the
existence of the futile process Illinois insists Next undergo.
The Second Circuit in Anaheim Gardens v. United
States, 444 F.3d 1309 (2d Cir. 2006) observed this
Court has excused the failure to show finality in the
face of “administrative futility” citing Palazzolo v.
Rhode Island, 533 U.S. 620 (2001) and noting that the

18
ripeness doctrine does not require a landowner to apply for its own sake. Anaheim Gardens, 444 F.3d at
1316. But that is what the Illinois Courts are requiring
Next to do in this case. In essence, Illinois courts are
complicit in the unconstitutional actions of Illinois by
ignoring well-pleaded facts coming within the longestablished futility doctrine set out by this Court and
recognized by the various Circuits.
In Anaheim Gardens, plaintiff proved its claim
was ripe regarding regulatory taking with evidence of
the futility of further proceeding for a permit through
the administrative process. Anaheim Gardens, 444
F.3d at 1315. The Illinois Appellate Court Rule 23 Order and the Illinois Supreme Court failed to give any
precedential weight to that ruling.
Next asserted sufficient evidence exists demonstrating its claim was ripe on the regulatory taking
claim and it need not have filed a permit request for its
oil wells because of the moratorium and onerous regulations. In further support of its claim of onerous regulations, Next cited the experience of the Woolsey
Company, the only company that applied for a permit
for a horizontal hydraulic fracturing well. As required,
Woolsey began the application to apply for a permit on
August 1, 2015.5 It would not receive its conditional

5

The Woolsey application and subsequent proceedings as
noted by the trial court are a matter of public record and can be
found at: https://www2.illinois.gov/dnr/OilandGas/Pages/Approved
Permits.aspx

19
permit for over two more years – on September 1,
2017.
Next argued the practical exhaustion of its fiveyear leases rendered any such application to Illinois
futile when it considered the time taken for Woolsey
just to get to the application point, and later, the time
needed by Woolsey to submit its application consisting
of 348 pages.
Next’s judgment was validated when the Woolsey
application was the only one ever partially processed
by Illinois (HVHHF-000001). The Woolsey application
was processed only in part, as Woolsey was only
granted a permit with 86 additional conditions (the
87th was a correction to the permit). The permit with
86 conditions demonstrated that not even Illinois was
able to determine whether the application complied
with the regulations because they were so burdensome, repetitive, and ill-defined. The Illinois Oil Basin
covers over 59,000 square miles, and not one well of the
type Next needed has been drilled since the imposed
moratorium in 2012. See n. 5. Pet. App. 22-25.
Woolsey gave up the permit process after over two
years of trying and received no refunds of the thousands of dollars expended in the process. Illinois’ application process became the perfect roadblock for any
oil company seeking a horizontal hydraulic fracturing
permit.
In its response to the Judgment on the Pleadings,
Next pointed to the failed Woolsey application experience which was (and still is) the only application for a

20
horizontal hydraulic fracturing oil well submitted in
Illinois after passage of the 2013 Act. This aborted application attempt demonstrated that the process imposed by Illinois was unworkable, unreasonable, futile,
costly, unfair, repetitive, and time-consuming and
would take more time than the Next leases allowed.
That only one aborted application for a permit for horizontal hydraulic fracturing wells supports the futility
of the application process. See n. 5.
Even though the specifics of the Woolsey application process occurred after the filing of Petitioner’s
Complaint but before the trial court’s ruling, it follows
that Next could expect the same treatment as was afforded Woolsey. The Woolsey application experience
sheds light on Illinois’ intentions regarding its application requirements just to get to the point where
Woolsey gave up.
It is unknown, except to Illinois, how many more
months or years it would have taken Woolsey to complete the application with conditions – if ever. Even
considering the time taken by the moratorium, the
promulgation of regulations, and the time required for
the Woolsey aborted permit process, the Illinois Courts
held Next was required to apply for a permit. Applying
would have been a futile act because those planned delays exceeded the term of the Next leases and left no
time for the preparation and drilling of numerous, horizontal hydraulic fracturing oil wells.

21
2. A Closer Look at the Woolsey Application Process considering Palazzolo
The Palazzolo court opined that, “Our ripeness
jurisprudence imposes obligations on landowners because “[a] court cannot determine whether a regulation goes ‘too far’ unless it knows how far the
regulation goes.” “The ripeness doctrine does not require a landowner to submit applications for their
own sake.” Palazzolo, 533 U.S. at 622. The saga of the
Woolsey application demonstrates that an application
by Next would have been an application without purpose, an application for the sake of application. And it
defines “how far the regulation(s) go.”
Illinois imposed even more barriers. After Woolsey
was approved to apply for a permit (apply to apply), it
had to renew the purchase of a five-million-dollar liability insurance policy for the required “application to
apply,” with such policy effective immediately. This policy was required even though there was no Woolsey operation on the proposed permit site causing any
possible liability exposure. Pet. App. 22.
After Illinois approved Woolsey to register to apply, Woolsey could then, and only then, apply for a permit. Registration was, in effect, only an application for
an application. Later, while Next was still applying to
apply for a permit, Illinois demanded Woolsey renew
the same five-million-dollar liability insurance policy
it had previously required, before it would accept the
application to apply for an application for a permit.
Pet. App. 22. Liability insurance renewal and its cost

22
were required, even though there was nothing to insure. But it made no difference to Illinois as insurance
was just one of the moving walls confronting Woolsey
and other would-be applicants.
Illinois finally acknowledged receipt of the Woolsey
permit application by letter on May 26, 2017 and Illinois began the permit process by scheduling a public
hearing. Prior to and adding to the barriers, on June 5,
2017, Illinois had alleged ten deficient areas in the permit application. Pet. App. 23. Woolsey labored through
those alleged ten deficient areas and submitted a supplemental application which consumed more time and
required more fees, even though Woolsey is an experienced oil company with numerous oil permit applications under its belt. Pet. App. 23. See also n. 5.
Then, Illinois extended the public comment time
so those who lived far away could comment. Comments
were submitted from entities with offices in Beijing,
China, New York, and other areas outside of Illinois.
Pet. App. 23. More delay happened as Illinois scheduled another public hearing for August 2, 2017 and required yet another public comment period beginning
August 4, 2017. Pet. App. 23. On August 14, 2017, Illinois required a second supplemental application (at
this point, there had been an original application, a
first supplemental application and now a second multipage supplemental application), and then demanded
Woolsey respond to more issues raised by out-of-state
and out-of-country entities. Pet. App. 23. Shockingly,
this application would grow to 348 pages for one well.
All required by Illinois. See also n. 5.

23
After that, the out-of-country entities, like China,
wanted even more information from Woolsey than was
required on the application, but it made no difference
to Illinois as Woolsey had to comply or else. On August
28, 2017, Illinois now required a third supplemental
permit application. The supplemental application required more fees and more time. Pet. App. 23. See n. 5.
Finally, after months of trying, on September 1,
2017 Woolsey received an answer, but not the one that
it needed to drill a well as Illinois issued only a conditional permit with 86 conditions before drilling could
commence. Woolsey had never seen these conditions
before then.6
Illinois gave Woolsey no objective criteria to judge
how long, if ever, it would take to satisfy Illinois regarding those newly presented conditions, nor if there
would be additional conditions imposed after the 86.
Time was running. Would Illinois move the wall again
and require compliance with more pages of red tape?
It took considerable time and the expenditure of significant company resources for Woolsey to get to that
point for a single application. Would this process be
required for each of the scores of wells it intended to
drill? How much longer would be required? Presumably only Illinois knew. Next, as well as other oil companies, could watch this process which is of public record.

6

See https://www2.illinois.gov/dnr/OilandGas/Documents/
Corrected%20HVHHF-000001%20PERMIT%20and%20Cover%20
Letter%209-1-2017.pdf, at pp. 3-13.

24
Upon receipt of the newly minted 86 conditions,
after months of trying, and after expending funds for
a single well permit attempt containing 348 pages,
(it would need scores more) Woolsey gave up and requested a release from the conditional permit. Thereafter on November 1, 2017, Illinois promptly released
Woolsey from any permit requirements and would not
refund the thousands of dollars in permit fees. Woolsey
left Southern Illinois and took with it the hopes of
thousands of tax paying property owners with shale oil
unrecovered below their property. Pet. App. 24. See also
n. 5.
Confronted with those multiple barriers, Woolsey
withdrew its application and abandoned its leases.
That fact, ignored by all courts below, underscored the
futility of the application process still enforced to this
day. Like in Sherman, there was no evidence as to how
much time was required to complete the additional
tasks needed for a permit. But even the time it took
Woolsey to get to the point of exhaustion for one permit
was more time than Next had to do what was needed.
Sherman holds a property owner will be excused from
obtaining a final decision if pursuing a final decision
would be futile. Futility is self-evident when oil leases
are expired or expiring and especially so when the application experience of the only known applicant is
considered.7
7

Besides disregarding the facts of Next’s complaint, the Illinois Appellate Court incorrectly determined three years remained on Next’s leases. Only a year-and-a-half to two years
remained on its leases after the promulgation of the Regulations

25
Even after a permit is authorized, an oil company
must schedule the drilling and completion of the well.
It follows that no such well could be drilled on land for
which the lease had expired, or for which insufficient
time remained to allow the proper preparation of and
completion for the drilling operation.
Almost a decade has passed since Illinois imposed
the unauthorized moratorium and other barriers
against horizontal hydraulic fracturing permits. And
since then, no horizontal hydraulic fracturing well has
been drilled in Illinois. Using time-limited leases, moratoria, and onerous regulations, Illinois has effectively
barred such wells and taken with it the shale oil of
thousands of owners in violation of the law. Attempting
an application in Illinois with these facts would have
been futile and as such is not required by Sherman,
Palazzolo or Lucas.
3. Implications of the Woolsey Experience
The experience of the Woolsey application process
is important because it confirms the allegations of
Next’s Complaint and shows that the Illinois permit
process would take longer than the term the Next
leases then allowed without considering the time
in 2014. Based on the Woolsey permit experience, nearly two
more years would be needed for just one permit to get to the point
where Woolsey gave up and left town. Next correctly had concluded that Illinois could simply out-wait it. Illinois did. Significantly, Next need not show the futility of making an application
during the moratorium as Illinois would not accept application for
these permits then.

26
needed to prepare for and drill horizontal hydraulic
fracturing wells.8
Nevertheless, the trial court’s order granting Illinois’ Motion for Judgment on the Pleadings asserts
Next’s futility argument is belied by its own submission of documents showing Woolsey applied for and
received a permit to conduct horizontal hydraulic fracturing in Illinois. Tellingly, the Illinois court did not
mention the amount of time, money and effort Woolsey
spent applying for a single permit requiring 348 pages,
nor that no one else bothered to apply, nor that no one,
including Woolsey, has ever drilled a horizontal hydraulic fracturing well in Illinois after passage of the
Hydraulic Fracturing Regulatory Act in 2013. Interestingly, the court incorrectly calculated the time left for
Next to practically prepare for and drill its planned
wells.9 Thereafter the Illinois court completely ignored
8

Granting of a permit does not mean drilling can begin immediately. Among many requirements, drilling contractors must
be identified, and contracts negotiated, materials ordered, county
road commissioners consulted, and arrangements must be negotiated with individual surface owners regarding access and egress
rights, as well as land and crop damages. This process could take
several months or more, depending on weather, before drilling
may commence after the permit is granted. It is not unusual for
county road commissioners to prohibit heavy traffic on secondary
roads during the fall, winter, and spring months. No drilling could
occur then because of the heavy equipment loads required. See
625 ILCS 5/15-316. Per Illinois requirements, permits expired in
12 months.
9
Besides disregarding the facts of Next’s complaint, the Illinois Appellate Court incorrectly determined three years remained on Next’s leases. There were only 18 to 24 months
remaining on its leases after the promulgation of the Regulations

27
Illinois’ imposition of 86 conditions that Woolsey was
required to fulfill before drilling could begin and be
completed. We now know “how far the regulations go”
and the Illinois courts failed to notice.
A review of the sequence of events surrounding
Next’s lease acquisitions and Woolsey’s application
process is instructive.
NEXT TIMELINE
September 27, 2011 Next Energy begins acquiring
first block of leases.
Mid-2012

Illinois DNR imposes an unannounced, unauthorized “moratorium.”

June 17, 2013

Hydraulic Fracturing Regulatory Act – New permits need to
conform to regulations not yet
promulgated.

November 2014

Illinois adopts regulations allegedly implementing the Hydraulic Fracturing Regulatory Act.

August 1, 2015

Woolsey Operating Company begins the registration process by

in 2014 for Next to complete its application and the items described in n. 3 above. The Woolsey application experience shows
that it would take nearly two years for Next to get to the point
where Woolsey gave up. Next was out of time, as Illinois
planned.

28
purchasing the required Liability Insurance Policy.
February 2, 2016

Woolsey Operating Company is
permitted to register for permit.

August 24, 2016

Woolsey Operating Company reregisters for permit with updated forms.

April 17, 2017

Woolsey Operating Company
submits notice of intent to submit permit application.

May 17, 2017

Woolsey Operating Company
submits complete permit application.

May 26, 2017

Illinois DNR notifies Woolsey
that the public comment period
would begin on May 29, 2017
and end on June 27, 2017.

June 5, 2017

Illinois DNR sends Woolsey Operating Company deficiency letter advising ten (10) areas in
which the Department required
additional information or documents for application HVHHF000001 to be complete.

June 15, 2017

Woolsey Operating Company
submits extension of time to respond to deficiency letter.

June 26, 2017

Woolsey Operating Company
waives 60-day deadline on Illinois DNR’s response to application. Illinois DNR’s new deadline

29
to approve or deny Woolsey’s application is extended to August
31, 2017.
June 26, 2017

Woolsey Operating Company
submits updated application for
HVHHF-000001. The public
comment period is extended because of this supplemental application.

August 2, 2017

Public hearing held on application HVHHF-000001. A second
public comment period is set to
begin August 4, 2017. Illinois
DNR receives various written
comments about the proposed
permit, one such written comment was from the Natural Resources Defense Council, an
environmental action group with
offices in New York, Washington
D.C., Chicago, and Beijing.

August 14, 2017

Illinois DNR sends Woolsey Operating Company deficiency letter advising the amended
application for HVHHF-000001
is incomplete. Advises Woolsey
they are required to respond to
the issues raised in the public
comment period and to provide
additional documentation.

August 25, 2017

Woolsey Operating Company
submits second updated application for HVHHF-000001.

30
August 28, 2017

Illinois DNR sends Woolsey Operating Company deficiency letter advising the second amended
application for HVHHF-000001
is incomplete.

August 29, 2017

Woolsey Operating Company
submits revised plans in response to Illinois DNR’s deficiency letter dated August 28,
2017.

September 1, 2017 Illinois DNR grants permit for
HVHHF-000001 so long as
eighty-six (86) conditions are met.
October 30, 2017

Woolsey Operating Company requests release of its permit and
Injection Well Permit Application withdrawn.

November 1, 2017 Illinois DNR releases permit
number HVHHF-000001. Illinois DNR advises Woolsey Operating Company in permit release
letter, “should you decide to pursue further development in Illinois, including the drilling of the
Woodrow #1H-310408-193 well
that was the subject of HVHHF000001 or any new wells, or perform HVHHF activities, you will
be required to submit new permit application including any
applicable, non-refundable fees.
Next leases had expired.”

31
To date, no permits are pending, and no horizontal
hydraulic fracturing wells have been drilled in Illinois
since the 2013 Act.10
After reviewing the Woolsey permit and 62 Ill.
Adm. Code 245.100 et seq., the Illinois court decided
the regulations are not so onerous and overreaching
that they support Next’s claim of the futility exception.
Pet. App. 11. The ruling is based on the characterization that Permit No. 000001 was granted by Illinois.
But that Permit No. 000001 came with 86 complicated
conditions, many of which are impossible to understand or accomplish as alleged in Next’s Complaint. No
unconditional permit allowing such wells has been
granted by Illinois since the enactment of regulations
in 2014, supposedly allowing horizontal hydraulic fracturing wells, including the Woolsey aborted application. The trial court wrongfully found that the issuance
to Woolsey of a conditional permit was an unconditional permit. And the Court did not mention that the
permit came with conditions that surfaced for the first
time on September 1, 2017,11 another moving barrier
as in Sherman. The Court ignored the fact that only a
month after issuance, Woolsey requested release from
conditional Permit No. 000001 and abandoned its oil
operations in Illinois. The Illinois courts also failed to
mention no such well has ever been drilled in Illinois
10

See https://www2.illinois.gov/dnr/OilandGas/Pages/Pending
PermitApplications.aspx.
11
See https://www2.illinois.gov/dnr/OilandGas/Documents/
Corrected%20HVHHF-000001%20PERMIT%20and%20Cover%20
Letter%209-1-2017.pdf.

32
since passage of the new Act in 2013 or since the unauthorized moratorium in 2012.
C. Illinois’ Onerous and Repetitive Regulations Resulted in Next’s Loss of All
Economic Benefit
Next’s lawsuit alleged Illinois deprived it of “all
economically beneficial use” of its property, resulting in
a total categorical taking requiring compensation. This
is supported by Lucas which holds that the Takings
Clause of the Fifth Amendment is applicable to the
States through the Fourteenth Amendment, citing
Chicago, B. & Q. R. Co. v. Chicago, 166 U.S. 226 (1897),
and that the Takings Clause prohibits the government
from taking private property for public use without
just compensation. Next argues when regulations go so
far as to cause barriers consuming the time allowed for
oil leases, a categorical taking occurs.
This is especially true when entities like Next rely
on the existence of laws and regulations in effect when
the term limited oil leases are obtained and compares
favorably with the facts in Sherman. Sherman relied
on the zoning uses permitted for the land at the time
of purchase. Id. at 558. He did not anticipate a delay/
denial for the use of his property. The Town erected
hurdles commencing with a moratorium on development, just as Illinois did in this case.
The ink on Next’s oil leases had barely dried when
Illinois issued a moratorium unauthorized by its legislature. Unlike the moratorium which stymied Next,

33
the moratorium in Sherman at least appeared to have
been authorized. Since the application was of public
record, Next watched the Woolsey application process with interest, knowing whatever happened to
Woolsey was likely to have happened to it when it
would have applied. As in Sherman, hindsight should
have sounded a lot like: “Perhaps he (the Colonel) won’t
raise the number this time.” Or perhaps Illinois will
not require more time than Next leases allowed.
That the State did not put up a “brick wall” between plaintiff and the finish line is not the deciding
factor. See Sherman, 752 F.3d 554 at 563. Rather,
what Illinois would do to Next, and as happened in
Sherman, was to continuously move the finish line
one step further away with a moratorium, onerous regulations, excessive time for application processing,
hearings, rehearings, requirements for supplementing
applications, and responses needed for questions from
persons from China and the like. Eventually, both got
the hint and gave up. Next just gave up earlier, once
it understood the regulations to be so onerous, illdefined, and repetitive and knew the permit process
would reflect the same. Yet even had the regulations
been workable, the repetitive and burdensome nature
of the process would take too long. Next leases would
expire before the applications could be completed.
Sherman teaches each regulatory taking claim is
unique and fact specific, and that claim must be determined on its own facts. Here, the facts demonstrate a
taking from Next as much as or more so than they did
in Sherman, Lucas, Palazzolo and Anaheim Gardens.

34
The Illinois process constitutes a taking and is evidenced by the fact that no unconditional horizontal
hydraulic fracturing well has ever been permitted nor
has one ever been drilled in Illinois since the moratorium in 2012. Those facts are compelling and exceed
the circumstances demonstrating a taking in each of
the above referred cases.
The inference no permit will ever be issued by
Illinois is reasonable, especially considering the passage of time. Next made a commonsense decision when
it recognized its efforts were hopeless. That Woolsey
tried and gave up justified Next’s decision not to apply
for a permit. The passage of time with no permits and
no horizontal hydraulic fracturing wells in Illinois confirms the futility of applying.
The Illinois court rulings should be reversed, and
this petition granted because the futility doctrine does
not require Next to perform a worthless act. The height
of impossibility/futility is to require an application for
a permit when a valid lease is required before a permit
will be granted. Expiration of Next’s leases together
with the onerous and repetitious regulations made
successful application for a permit futile, if not impossible.
Tellingly, none of the lower court rulings in this
case addressed the circumstances surrounding the issuance of the conditional permit to Woolsey, an experienced oil company. None of those courts mentioned
neither Woolsey nor any other company, has ever been

35
granted an unconditional permit allowing the drilling
of a horizontal hydraulic fracturing oil well.
III. The Illinois Cases Cited Are Inapposite
and Offer No Precedential Value
In support of its decision, the Illinois Appellate
Court pointed to Kawaoka v. City of Arroyo Grande, 17
F.3d 1227,1232 (9th Cir. 1994) to say that Next was required to apply for a permit for its claim to be ripe. In
Kawaoka, which involved a substantive due process
claim and not a takings claim, Plaintiffs were owners
of the surface rights to the land, not lessees of the mineral rights. Unlike with Next, there was no time limit
regarding Kawaoka’s ownership, as was also true in
Palazzolo and Sherman.12
The Illinois Appellate Court also relied on LaSalle
Bank National Ass’n v. City of Oakbrook Terrace, 393
Ill. App. 3d 905, 911 (2009) for the proposition that the
claim was not ripe because it had never sought approval for any development on the subject property.
However, in LaSalle Bank, the movants were seeking
relief on a zoning issue, the procedure for which included the ability to petition for a variance of the zoning for the property. Also, as owners of the property, the
LaSalle Bank plaintiffs did not face the time limits
inherent in expiring leases as faced by Next. See
LaSalle, 393 Ill. App. 3d at 906. Moreover, where a
12

The Next leases were negotiated and executed in 2011 and
2012. The common practice in the oil industry is such leases are
granted for a term of five years.

36
regulatory scheme offers the possibility of a variance,
the property owner “must go beyond submitting a plan
for development and actually seek such a variance to
ripen his claim.” Suitum v. Tahoe Regional Planning
Agency, 520 U.S. 725, 736-737 (1997).
As a result, LaSalle Bank can only be read to say
that when a government entity has discretion to vary
from the established conditions (as in the granting of a
variance of zoning requirements), a plaintiff would be
required to pursue its application to finality. Since
the regulations here were not discretionary Illinois
could not deviate from those requirements. As a result,
LaSalle Bank is inapposite and unpersuasive. The
LaSalle Bank opinion, decided in 2009, contravenes
Lucas, Palazzolo and Sherman, which hold a plaintiff
does not have to pursue a futile course of action to finality to have the taking claim deemed ripe for decision. To the extent LaSalle Bank disagrees with Lucas
and Palazzolo, those cases are controlling, and LaSalle
Bank offers no precedential value in this case.
IV. Allowing the Lower Court Rulings to Stand
Adversely Impacts Numerous Other Shale
Oil Property Owners in Southern Illinois
This Petition should be granted because relief is
needed by Next and other owners of shale oil. Illinois
has been a significant oil producing state. If Illinois has
its way, shale oil will remain unrecovered denying
thousands the economic use of their property in violation of the most basic property right.

37
Lawsuits have been filed on behalf of shale oil
owners in Southern Illinois in Clay, Edwards, Hamilton,
Wabash, Wayne, and White counties alleging Illinois
has implemented regulations and other barriers to
stop the drilling of horizontal hydraulic fracturing oil
wells in Illinois. These lawsuits claim onerous regulations and other barriers imposed by Illinois have taken
property in violation of Amendment V of the Constitution.
---------------------------------♦---------------------------------

CONCLUSION
The Petition for a writ of certiorari should be
granted.
Respectfully submitted,
RODNEY V. TAYLOR*
*Counsel of Record
HILARY A. BARNES
CHRISTOPHER & TAYLOR
1219 N. Delaware Street
Indianapolis, IN 46202
(317) 635-9000
rodtaylor@abatelegal.com
MORRIS LANE HARVEY
HARVEY & BAKER, P.C.
2029 Broadway
Mt. Vernon, IL 62864
(618) 244-9544
lharvey@lmh-law.net

